  U.S. ENVIRONMENTAL PROTECTION AGENCY
  OFFICE OF INSPECTOR GENERAL


                                 Catalyst for Improving the Environment




EPA Should Bill Superfund
Oversight Costs More Timely
Report No. 11-P-0697

September 22, 2011
Report Contributors:                               Paul Curtis
                                                   Meg Hiatt
                                                   Alfred Falciani
                                                   Bob Evans
                                                   Carol Kwok
                                                   Edgar Dumeng
                                                   Kevin Ross
                                                   Phil Weihrouch
                                                   Robert Hairston




Abbreviations

CERCLA        Comprehensive Environmental Response, Compensation, and Liability Act
CFC           Cincinnati Finance Center
EPA           U.S. Environmental Protection Agency
IFMS          Integrated Financial Management System
MOU           Memorandum of understanding
OIG           Office of Inspector General
ORC           Office of Regional Counsel
OSWER         Office of Solid Waste and Emergency Response
PRP           Potentially responsible party
SCORPIOS      Superfund Cost Recovery Package Imaging and On-Line System




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             11-P-0697
                                                                                                   September 22, 2011
                        Office of Inspector General


                        At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This Review                EPA Should Bill Superfund Oversight Costs
The purpose of this audit was to
                                      More Timely
determine whether the U.S.
Environmental Protection              What We Found What We Found
Agency’s (EPA’s) Superfund
oversight bills reflect the correct   Based on our audit of oversight billings for nine sites in Regions 1, 5, and 9,
nature and dollar amount, and         we found that Region 5 did not timely bill or did not bill approximately
whether EPA timely bills and          $8.6 million in oversight costs for two sites. The $8.6 million consists of $2.5
collects Superfund oversight          million for costs incurred between 2000 and 2008 that were not timely billed,
expenditures.                         and $6.1 million that was not billed prior to the start of our audit. During our
                                      audit, Region 5 billed about $1 million of the $6.1 million. We did not
Background                            identify problems with oversight cost billings in Regions 1 or 9.

Although potentially responsible      Region 5 did not timely bill oversight costs and has not billed certain costs
parties (PRPs) pay for cleanup at     because the accounting staff has difficulty in allocating costs at sites with
Enforcement Lead Superfund            multiple agreements and operable units, and the case management team has
sites, EPA incurs oversight costs     difficulty coordinating review of oversight costs. Further, EPA’s policies do
from monitoring the PRPs’             not require oversight bills to be issued within a specific timeframe. Untimely
cleanup work. The                     billing of oversight costs results in delays in replenishing the Superfund Trust
Comprehensive Environmental           Fund, and limits EPA’s ability to timely clean up other priority sites to
Response, Compensation, and           further protect human health and the environment.
Liability Act authorizes EPA to
recover from PRPs Superfund           What We Recommend Found
cleanup costs that are not
inconsistent with the National        We recommend that the Region 5 Regional Administrator direct the
Contingency Plan.                     Superfund Division Director to develop a policy to require that oversight
                                      billings be issued no less than annually, and procedures to help staff prepare
                                      oversight billings and resolve billing problems. We also recommend that the
                                      Region 5 Regional Administrator direct the Superfund Division Director to
                                      bill PRPs up to $4,319,545 incurred for the Allied Paper site and
                                      approximately $783,845 for the Sauget site.

                                      While Region 5 did not agree with the recommendation to issue a policy
                                      requiring annual billings, Region 5 stated that it plans to bill any future
For further information,              oversight costs on an annual basis. If the Agency bills annually as indicated,
contact our Office of                 that would address the intent of our recommendation. Region 5 agreed that
Congressional, Public Affairs and     additional protocols are needed to ensure that management is made aware of
Management at (202) 566-2391.
                                      any projected delay in oversight billing and will develop standard operating
The full report is at:                procedures. Region 5 partially satisfied our last recommendation by billing
www.epa.gov/oig/reports/2011/         $2,389,367 and $757,312 in costs for the Allied and Sauget sites,
20110922-11-P-0697.pdf                respectively, through August 2, 2011. Because of the timing of the billings,
                                      we were unable to verify how much remains to be billed.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                            THE INSPECTOR GENERAL




                                        September 22, 2011

MEMORANDUM

SUBJECT:	 EPA Should Bill Superfund Oversight Costs More Timely
          Report No. 11-P-0697


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Susan Hedman
               Regional Administrator, EPA Region 5


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position on
the subjects reported. Final determination on matters in this report will be made by EPA
managers in accordance with established audit resolution procedures.

The estimated direct labor and travel costs for this report are $233,961.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 90 calendar days. You should include a corrective actions plan for agreed-upon actions,
including milestone dates. Your response will be posted on the OIG’s public website, along with
our memorandum commenting on your response. Your response should be provided as an Adobe
PDF file that complies with the accessibility requirements of Section 508 of the Rehabilitation Act
of 1973, as amended. The final response should not contain data that you do not want to be
released to the public; if your response contains such data, you should identify the data for
redaction or removal. We have no objections to the further release of this report to the public. We
will post this report to our website at http://www.epa.gov/oig.

If you or your staff, have any questions regarding this report, please contact Paul Curtis at
(202) 566-2523 or curtis.paul@epa.gov, or Meg Hiatt at (513) 487-2366 or
hiatt.margaret@epa.gov.
EPA Should Bill Superfund Oversight Costs                                                                                      11-P-0697
More Timely


                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Noteworthy Achievements ........................................................................................                   2


   Scope and Methodology.............................................................................................                 2


   Results of Review .......................................................................................................          3


   Conclusions.................................................................................................................       4


   Recommendations ......................................................................................................             5


   Agency Comments and OIG Evaluation ...................................................................                             5


   Status of Recommendations and Potential Monetary Benefits..............................                                            7




Appendices
   A Details on Scope and Methodology ....................................................................                            8


   B Region 5 Response to Draft Report.....................................................................                          11 


   C Distribution ............................................................................................................       14 

Purpose

            The purpose of this audit was to determine whether the U.S. Environmental
            Protection Agency’s (EPA’s) Superfund oversight bills reflect the correct nature
            and amount, and whether EPA timely bills and collects Superfund oversight
            expenditures.

Background
            Although potentially responsible parties (PRPs) pay for cleanup at Enforcement
            Lead Superfund sites, EPA incurs oversight costs from monitoring the PRPs’
            cleanup work. The Comprehensive Environmental Response, Compensation, and
            Liability Act (CERCLA) authorizes EPA to recover from PRPs Superfund
            cleanup costs that are not inconsistent with the National Contingency Plan.
            Recoverable costs include EPA’s planning and implementing cleanup actions,
            investigation and monitoring, actions to limit access to the site, indirect costs
            needed to support the cleanup work, EPA’s contractor costs, and annual allocation
            costs. EPA recovers these costs through cost recovery actions. Cost recovery
            settlements are either embodied in a consent decree or administrative orders.

               	 A consent decree is a legal agreement entered into by the United States
                  (through EPA and the U.S. Department of Justice) and PRPs and lodged
                  with a court.
               	 An administrative order on consent is a similar document, except that it is
                  not approved by the court.

            EPA may also recover oversight costs through unilateral administrative orders,
            which require PRPs to undertake response actions when a settlement is not
            reached. The settlement agreements establish the billing frequency, and often the
            agreements state that EPA will bill periodically.

            EPA tracks the oversight costs in the Integrated Financial Management System
            (IFMS). The Office of Regional Counsel (ORC), Superfund Division, or finance
            office in the regions prepares the cost recovery packages using the Superfund
            Cost Recovery Package Imaging and On-Line System (SCORPIOS), which
            extracts costs from IFMS. The cost recovery packages are a compilation of costs
            incurred for a site and can include such costs as payroll, travel, contractor costs,
            and indirect costs. The review process of the cost recovery packages varies
            slightly by region. The ORC, Superfund Division, and finance office review the
            cost recovery packages to verify financial accuracy of the costs. After all three
            offices agree on the content, either the Superfund Division or finance office
            (depending on the region) prepares the final bills, sends the bills to the PRPs, and
            provides a copy to the Cincinnati Finance Center (CFC). Further, the CFC has the
            lead role in collecting the oversight costs and assessing interest on delinquent
            bills. The CFC involves the regions as necessary.



11-P-0697                                                                                       1
Noteworthy Achievements
            As we conducted our audit, we identified the following noteworthy achievements
            related to the billing of the oversight costs in Region 9:

               	 The ORC, Superfund Division, and Cost Accounting Team conduct
                  monthly meetings to discuss the billings as well as any site issues.

               	 The Cost Accounting Team uses a cost recovery documentation checklist
                  included in a Lotus Notes database to compile the financial cost
                  documentation summary/package. The checklist consists of a list of
                  potential EPA intramural and extramural service providers. It allows the
                  cost documentation requester to specify the type of cost summary/package
                  needed for a particular cost recovery activity and prepare additional
                  instructions for the Cost Accounting Team. The checklist facilitates the
                  process of preparing the cost documentation summary/package by
                  identifying the types of costs that need to be included in the cost package
                  (e.g., headquarters or regional payroll, interagency agreements, contracts).

               	 The Superfund Division and Cost Accounting Team provide periodic
                  training on site-specific charging as well as cost documentation procedure
                  orientation to new attorneys, remedial project managers, and program
                  project officers to inform them how to track their time accurately by site
                  and what needs to be included in the costs documentation
                  summary/package.

Scope and Methodology
            We conducted our audit from January 13 to July 8, 2011, in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our conclusions based on our audit objectives.

            We selected Regions 1, 5, and 9 for review because they had the largest amounts
            of unbilled oversight costs in the Agency’s fiscal year 2010 unbilled oversight
            accrual spreadsheet. We reviewed laws and regulations related to the billing of
            Superfund oversight costs. We also reviewed EPA policies and guidance. We
            reviewed documents for selected sites, including settlement agreements, itemized
            costs summaries from SCORPIOS, and billing queries from EPA’s Financial Data
            Warehouse to determine the accuracy and timeliness of billings.

            Appendix A contains further details on our scope and methodology.



11-P-0697                                                                                       2
Results of Review
            Based on our audit of oversight billings for nine sites in Regions 1, 5, and 9, we
            found that Region 5 did not timely bill or did not bill approximately $8.6 million
            in oversight costs for two sites. The $8.6 million consists of $2.5 million for costs
            incurred between 2000 and 2008, which were not timely billed, and $6.1 million
            that was not billed prior to the start of our audit. During our audit, Region 5 billed
            about $1 million of the $6.1 million, leaving $5.1 million to be billed. We did not
            identify problems with oversight cost billings in Regions 1 or 9. CERCLA
            authorizes EPA to recover its costs from PRPs to help replenish the Superfund
            Trust Fund, and Office of Solid Waste and Emergency Response (OSWER)
            guidance states that EPA will strive to issue timely (e.g., annual) oversight bills,
            and that regions are required to issue a timely bill for future response costs to the
            extent called for by the underlying settlement agreement. Region 5 did not timely
            bill oversight costs and has not billed certain costs because the accounting staff
            has difficulty (1) allocating costs at sites with multiple agreements and operable
            units, and (2) coordinating review of oversight costs. Further, EPA’s policies do
            not require oversight bills to be issued within a specific timeframe. Untimely
            billing of oversight costs results in delays in replenishing the Superfund Trust
            Fund and limits EPA’s ability to timely clean up other priority sites to further
            protect human health and the environment. EPA also lost or postponed the
            opportunity to collect interest on oversight costs not billed and collected that
            would have accrued to the Trust Fund.

            Office of Solid Waste and Emergency Response Interim Guidance

            OSWER Directive No. 9200.0-32P, Interim Guidance on Implementing the
            Superfund Administrative Reform on PRP Oversight, was issued to provide
            guidance to regions on implementation of the Superfund reform on the
            administration of PRP oversight. The guidance states, “Where PRPs have entered
            into agreements with EPA to pay oversight costs, EPA will strive to issue timely
            (e.g., annual) oversight bills based on known or available costs at the time of
            billing.” The guidance also states that under the Superfund reform on PRP
            oversight, regions are required to issue a timely bill for future response costs
            (including oversight costs) that is, to the extent called for by the underlying
            agreement, accompanied by appropriate cost documentation.

            Region 5 Billing Practices

            Region 5 did not timely bill oversight costs of $2.5 million for the Sauget site
            under a November 2000 administrative order on consent and a September 2002
            unilateral administrative order. The first billings under these orders were not
            issued until September 2008 and covered billing periods of approximately 6 and 7
            years. Table 1 provides a summary of the costs not billed timely.




11-P-0697                                                                                        3
            Table 1: Oversight costs not billed timely
               Site         Order date       Billing date          Billing period        Amount
             Sauget          11/24/2000       09/25/2008      11/25/2000–12/31/2007     $1,463,351
             Sauget          09/30/2002       09/25/2008      09/30/2002–08/31/2008      1,007,146
                                                                       Total            $2,470,497
            Source: Office of Inspector General (OIG) analysis.

            Further, Region 5 did not bill oversight costs of up to $6.1 million. Table 2
            provides a summary of the costs not billed for the two sites.

            Table 2: Oversight costs not billed
                            Site                      Billing period                  Amount
             Allied Paper                     02/15/2005–12/31/2010                    $5,319,545a
             Sauget                           01/01/2008–10/31/2010                       783,845b
                                                             Total                      $6,103,390
            Source: OIG analysis.

                      a
                          Under five settlement agreements.
                      b
                          Under the administrative order on consent.

            As of May 2011, Region 5 issued oversight bills totaling approximately
            $1 million for the Allied site for costs incurred from 2005 through 2010.
            Subsequent to issuing out draft report, Region 5 billed $2,389,367 and $757,312
            in costs for the Allied and Sauget sites through August 2, 2011. Because of the
            timing of the billings, we were unable to verify how much remains to be billed.

            Region 5 stated that the oversight billings took longer because it is difficult for the
            accounting staff to allocate costs at sites with multiple agreements, operable units,
            and complications due to a complex bankruptcy. The region also said that for
            these sites, it is difficult for the case management team for each settlement
            agreement (consisting of the lead attorney, remedial project manager, and
            on-scene coordinator) to coordinate the review of costs. Also, we believe the
            billings were not timely because EPA’s policies do not require oversight billings
            to be issued within a specified timeframe. Region 5 has a Superfund cost recovery
            procedures memorandum of understanding (MOU) with ORC, the Superfund
            Division, and the finance office. This MOU defines roles and responsibilities of
            ORC, Superfund Division, and the Resources Management Division, and includes
            the Superfund cost recovery procedures and timeframes for reviewing and issuing
            draft and final oversight billings. However, we found that for the Sauget and
            Allied Paper sites, the timeframes in the MOU were not met.

Conclusions
            Region 5 did not timely bill oversight costs, which delayed replenishing the trust
            fund and having the funds available to clean up other sites. Specifically, Region 5
            did not bill oversight costs of up to $6.1 million accumulated at two sites between


11-P-0697                                                                                            4
            2000 and 2010. EPA also lost or postponed the opportunity to collect interest on
            oversight costs not billed and collected that would have accrued to the Superfund
            Trust Fund.

Recommendations

            We recommend that the Regional Administrator, Region 5, direct the Superfund
            Division Director to:

                   1.	 Develop a policy to require Region 5 to bill Superfund oversight cost
                       billings no less frequently than annually.
                        
                   2.	 Develop procedures for staff involved in oversight billings to meet on
                       a regular basis to discuss the status of billings due under agreements or
                       orders, to coordinate staff in preparing and reviewing bills, and to
                       resolve problems that are delaying the issuance of bills. 
                        
                   3.	 Bill PRPs up to $4,319,545 incurred for the Allied Paper site, and
                       approximately $783,845 for the Sauget site.

Agency Comments and OIG Evaluation

            Region 5 did not agree with our recommendation to develop a policy to require
            them to bill Superfund oversight costs billings no less frequently than annually.
            Region 5 recognized the existence of the current guidance in OSWER Directive
            No. 9200.0-32P, Interim Guidance on Implementing the Superfund Administrative
            Reform on PRP Oversight. The guidance states that, “Where PRPs have entered
            into agreements with EPA to pay oversight costs, EPA will strive to issue timely
            (e.g., annual) oversight bills.” Region 5 noted that the guidance is not mandatory
            and believes it is important to leave some control over the timing of oversight
            billing to the discretion of the enforcement team. We agree that there should be
            some control over the timing of oversight billings left to the discretion of the
            enforcement team, but in no case should billings be less frequent than annually.
            While Region 5 did not agree with the recommendation to issue oversight bills
            annually, Region 5 stated that they plan to bill any future oversight costs on an
            annual basis. If Region 5 bills annually as indicated, that would address the intent
            of our recommendation. Therefore, we continue with our recommendation that
            Region 5 timely bill oversight costs to PRPs no less frequently than annually, as
            less frequent billings delay replenishing the Superfund Trust Fund, and consider
            the recommendation unresolved in lieu of a planned completion date.

            Region 5 referred to the MOU for Superfund cost recovery procedures that
            formalizes cost recovery procedures among the Superfund Division, the ORC, and
            the Resources Management Division. However, Region 5 agreed that additional
            protocols are needed to ensure that management is made aware promptly of any
            projected delay in oversight billing so issues can be resolved expeditiously.


11-P-0697                                                                                       5
            Region 5 will develop standard operating procedures to provide staff with clear
            direction on the process of informing management of any issues that could delay a
            bill. Management review and approval will be required for any bills to be issued
            less frequently than on an annual basis. We still recommend that Region 5
            develop procedures for staff involved in oversight billings to meet on a regular
            basis to discuss the status of billings.

            Region 5 partially satisfied our recommendation 3 by billing $2,389,367 and
            $757,312 of the amounts questioned in this report for the Allied Paper and Sauget
            sites through August 2, 2011. Because of the timing of the billings, we were
            unable to verify how much of the remaining funds were available for additional
            billings. We acknowledge that the complexities of agreements and difficulties in
            allocating costs to different PRPs can cause delays in billing, and commend
            Region 5 for its efforts in billing oversight costs as recommended.

            Appendix B provides Region 5’s response to the draft report. Region 5 included
            three attachments in its response. Attachment 1 refers to OSWER Directive No.
            9200.0-32P, Interim Guidance on Implementing the Superfund Administrative
            Reform on PRP Oversight. Attachment 2 refers to Region 5’s MOU for Superfund
            cost recovery procedures. Attachment 3 provides details for the amounts billed for
            the Allied Paper and Sauget sites. Due to the length of the directives and the
            MOU, we did not include the full text of the attachments.




11-P-0697                                                                                   6
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                       POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                     BENEFITS (in $000s)

                                                                                                                    Planned
 Rec.      Page                                                                                                    Completion           Claimed        Agreed To
 No.        No.                           Subject                           Status1       Action Official             Date              Amount          Amount

   1         5     Direct the Superfund Division Director to develop a        U       Regional Administrator,
                   policy to require Region 5 to bill Superfund                             Region 5
                   oversight cost billings no less frequently than
                   annually.

   2         5     Direct the Superfund Division Director to develop          O       Regional Administrator,       3/30/2012
                   procedures for staff involved in oversight billings to                   Region 5
                   meet on a regular basis to discuss the status of
                   billings due under agreements or orders, to
                   coordinate staff in preparing and reviewing bills,
                   and to resolve problems that are delaying the
                   issuance of bills.

   3         5     Direct the Superfund Division Director to bill PRPs        C       Regional Administrator,       8/2/2011             $6,100          $3,147
                   up to $4,319,545 incurred for the Allied Paper site,                     Region 5
                   and approximately $783,845 for the Sauget site.1




   O = recommendation is open with agreed-to corrective actions pending
   C = recommendation is closed with all agreed-to actions completed
   U = recommendation is unresolved with resolution efforts in progress




1 We found $6.1 million that was not billed prior to the start of our audit. As of May 2011, Region 5 billed about $1 million. Subsequent to our audit, Region 5

billed an additional $3.147 million. Because of the timing of the billings, we were unable to verify how much of the remaining funds were available for additional
billings.




11-P-0697                                                                                                                                                            7
                                                                               Appendix A

               Details on Scope and Methodology
We reviewed laws and regulations pertaining to the billing of Superfund oversight costs,
including CERCLA. We also reviewed EPA policies and guidance, such as Resources
Management Directive System 2550D-12, Superfund Cost Documentation and Cost
Recovery; Resources Management Directive System 2550D-14, Superfund Accounts
Receivable and Billings; and OSWER Directive No. 9200.0-32P, Interim Guidance on
Implementing the Superfund Administrative Reform on PRP Oversight.

We obtained a universe of sites from CFC’s fiscal year 2010 fourth quarter unbilled
oversight accrual spreadsheet. The accrual spreadsheet contained 832 site IDs with total
unbilled oversight costs of $86 million as of September 30, 2010. Using the CFC’s
spreadsheet, we selected the regions with the largest amount of accrued unbilled
oversight costs for review. The regions selected for review were Regions 1, 5, and 9, with
accrued unbilled oversight costs of approximately $43 million. We then selected three
sites with the largest accrued amount for review from the three selected regions, for a
total of nine sites. The accrued unbilled oversight costs for the nine sites selected were
approximately $23 million. We believed that by selecting sites with largest amount of
unbilled oversight costs, we were more likely to identify instances in which controls over
oversight billings were not adequate. Table A-1 provides details on the sites selected for
review.

Table A-1: Sites reviewed
                                                              Unbilled oversight costs
   Region               Site ID                Site name             at 09/30/10
      1          0146                     Wells G & H              $6,738,204.87
      1          0109                     W.R. Grace                2,202,599.85
      1          011T                     Beede Waste Oil            966,128.86
      5          059B                     Allied Paper              6,763,004.17
      5          05XX, 0558               Sauget Area Two           2,043,891.02
      5          0582                     Rose Township              633,212.04
      9          09R8                     Unidynamics - UPI         1,531,252.31
      9          09JS                     Asarco                    1,246,177.60
      9          09MX                     Iron King Mine            1,096,364.32
                                  Total                           $23,220,835.04
Source: OIG analysis.

We developed a questionnaire to obtain information from EPA staff involved with
oversight billings. The objective of the questionnaire was to determine the process for
billing oversight costs, the status of oversight billings, and whether oversight billings are
accurate and timely sent to PRPs. We contacted select accounting staff, cost recovery
specialists, regional counsel, and remedial program managers in Regions 1, 5, and 9. We


11-P-0697                                                                                       8
also interviewed CFC staff about their procedures for billing and collecting oversight
costs. We reviewed billing files and records for selected sites, including settlement
agreements and itemized cost summaries from SCORPIOS. We reviewed EPA’s
methodology for allocating the indirect costs. However, we did not audit the indirect cost
rate methodology. Headquarters calculates and publishes the annual indirect cost rates
and inputs the rates into SCORPIOS. The regions use the indirect cost rates in
SCORPIOS to compute the indirect costs that are included in the billings for the
oversight costs.

Prior Reviews

We researched prior EPA OIG and U.S. Government Accountability Office reports
related to the Superfund billings. We noted four pertinent EPA OIG reports, as listed
below:

   	 Region 3’s Billing of Superfund Oversight Costs, Report No. E5FFL7-03-0008-
      7100292, September 22, 1997. We found that Region 3 sometimes took a long
      time to bill responsible parties for oversight costs. In one instance, the bill
      presented to the responsible party represented charges generated over an 8-year
      period.

   	 Region 2’s Billing of Superfund Oversight Costs, Report No. E1SFF8-02-0007-
      8100206, August 13, 1998. We found that Region 2 did not timely bill and collect
      accumulated Superfund oversight costs. Further, the region did not recover
      cleanup oversight costs from responsible parties for as long as 11 years. Specific
      contributing factors were (1) other competing priorities, (2) inadequate tracking
      systems, (3) vague or nonexistent billing requirements in administrative orders on
      consent or consent decrees, (4) inadequate coordination between program offices
      and ORC, (5) difficulty in segregating oversight from other response costs, and
      (6) lack of resources.

   	 Region 9’s Controls Over Superfund Oversight Cost Billings, Report No.
      E1SFF8-09-0022-8100259, September 30, 1998. We found that Region 9 had
      made significant progress in reducing its several-year backlog of unbilled
      oversight costs by July 1998. However, continued attention is necessary to assure
      that the region is able to meet EPA’s standard for preparing current oversight
      billings within 120 days of the consent decree or administrative order on consent
      anniversary date.

   	 EPA Can Recover More Federal Superfund Money, Report No. 08-P-0116,
      March 26, 2008. We found that exceptions to the typical billing approach can
      impede some cost recovery. These exceptions include the following: (1) regions
      may not bill some sites annually, (2) sites’ established billing cycle may be every
      2 years or periodic, (3) EPA has no agreement with the PRP to recover oversight
      costs, and (4) the region may not find it cost effective to bill for a small amount.
      Under the above conditions, regions told us they sometimes postpone an annual


11-P-0697                                                                                    9
       detailed review of site costs. When the regional staff finally review the site costs
       to prepare a bill, they may find that all costs are not fully documented and staff
       with historic knowledge may not be available.

Internal Control Review

In planning and performing our audit, we reviewed management controls related to our
audit objectives. We examined EPA’s fiscal year 2010 Federal Managers’ Financial
Integrity Act Annual Assurance Letters issued by the Regional Administrators and
Assistant Administrators for the various EPA programs to identify any weaknesses
pertaining to accounts receivables, collections, and oversight costs. In addition, we
examined EPA’s Office of Management and Budget Circular A-123 Appendix A reviews
of internal controls to identify any weaknesses related to accounts receivables,
collections, and oversight costs. EPA identified no material weaknesses in its Circular
A-123 reviews related to oversight cost billings and collections. We obtained an
understanding of control activities through reviews of EPA’s various policies, guidance,
and procedures related to unbilled oversight costs. We obtained an understanding of the
oversight billing process through review of background information, indirect cost rates,
and preliminary research walk-throughs. We did not review the internal controls over
EPA’s IFMS or SCORPIOS from which we obtained information, but relied on reviews
of systems conducted during the audit of EPA’s fiscal year 2010 financial statements.




11-P-0697                                                                                     10
                                                                              Appendix B

              Region 5 Response to Draft Report
                                    August 10, 2011


MEMORANDUM

SUBJECT:	 Region 5 Response to the Office of Inspector General’s Draft Report:
          “EPA Should Bill Superfund Oversight Costs More Timely”
          Project No. OA-FY11-0045

FROM:          Susan Hedman
               Regional Administrator

TO:	           Melissa Heist
               Assistant Inspector General for Audit

On July 11, 2011 Region 5 received the above-referenced draft report, which accurately
identified two Superfund sites where Region 5’s oversight bills were not sent out on an
annual basis. We welcome this opportunity to comment on the draft report and respond
to its recommendations.

Region 5 has a sound cost recovery program; oversight bills are issued on an annual basis
in the vast majority of cases. In fiscal year 2010, 98 percent of the regularly scheduled
oversight bills were issued timely (i.e. within 120 days of the annual anniversary date of
the order). We agree, however, that our process can be improved to ensure that existing
policies and procedures are followed consistently and that issues causing potential delays
in billing are elevated to management promptly. With regard to the two specific
instances identified in the draft report, we must point out that in one instance (the Allied
Paper/Portage Creek/Kalamazoo River Superfund Site), billing was complicated by the
bankruptcy liquidation of one of the major potentially responsible parties (PRPs) at the
site. This PRP was also a signatory to the agreements giving rise to the oversight costs.
In the other matter (the Sauget Area 2 Superfund Site), billing has been extraordinarily
complicated due to the fact that different PRPs are responsible for cleanup at various
areas of the site. Although the complex bankruptcy and complicated allocation of costs
do not necessarily excuse the billing delays, we believe they are explanations that should
be taken into account in your final report.
        

With regard to the recommendation that we develop a policy to require billing no less
frequently than annually, I direct you to EPA’s Interim Guidance on Implementing the
Superfund Administrative Reform on PRP Oversight, OSWER Directive No. 9200.0-32P
(Attachment 1). This guidance states that “where PRPs have entered into agreements
with EPA to pay oversight costs, EPA will strive to issue timely (e.g., annual) oversight


11-P-0697                                                                                      11
bills.” It is a general goal of the Agency and Region 5 to issue oversight bills annually.
This goal, however, is not a mandatory requirement, nor does Region 5 believe it should
be. The discretion inherent in the goal is reflected in EPA’s model settlement
agreements, which typically provide that EPA will bill the respondents or defendants “on
a periodic basis” (see, e.g., paragraph 55.a. of the Model Remedial Design and Remedial
Action Consent Decree). This discretion may be appropriate in individual cases, such as
at the Allied Paper/Portage Creek/Kalamazoo River Superfund Site. In this case, EPA
has been negotiating a series of settlement agreements to perform very costly cleanup
work at the site. Region 5 believes that it is important to leave some control over the
timing of oversight billing to the discretion of the enforcement team.

With regard to your recommendation concerning the development of procedures for staff
coordination on oversight billing, I want to call your attention to Region 5’s
Memorandum of Understanding (MOU) for Superfund cost recovery procedures
(Attachment 2). The MOU was last amended on September 27, 2001 and formalizes cost
recovery procedures among the Superfund Division, the Office of Regional Counsel, and
the Resource Management Division. This MOU recognizes the roles and responsibilities
of all personnel involved in Superfund cost recovery and establishes the Cost Recovery
Task Force. This task force includes representatives from each division and meets on a
quarterly basis for the purpose of assessing whether oversight bills are sent in the
appropriate time frame. Region 5 also has a bill tracking system which records billing
dates and establishes dates for future billings.

Region 5 agrees, however, that additional protocols are needed to ensure that
management is made aware promptly of any projected delay in oversight billing so that
issues can be resolved expeditiously. To that end, we will develop a standard operating
procedure (SOP) to provide staff with clear direction on the process of informing
management of any issues that could delay a bill. Management review and approval will
be required for any bills to be issued less frequently than on an annual basis. The SOP
will be finalized within the next three months. In addition to the existing tracking tool,
we will use the unbilled accrual report on a quarterly basis to monitor for any outlier
situations that may be developing. Finally, we will revisit and update the MOU to reflect
recent organizational changes and any other appropriate updates.

We have already addressed your final recommendation. The billing for the total amount
of recoverable oversight costs for the Allied Paper/Portage Creek/Kalamazoo River and
Sauget Area 2 Superfund Sites has been brought up-to-date. See Attachment 3 for details
on the billing dates and amounts. We plan to bill any future oversight costs on an annual
basis.

Thank you for providing us with an opportunity to respond to your draft report. I believe
that the procedures we will implement as a result of your investigation will make an
already strong program even stronger. If you have any questions, please contact me or
your staff may contact Dale Meyer, Resource Management Division at 312-886-7561 or
meyer.dale@epa.gov; Larry Kyte, Office of Regional Counsel at 312-886-4245 or




11-P-0697                                                                                    12
kyte.larry@epa.gov; or Sharon Jaffess, Superfund Division at 312-353-0536 or
jaffess.sharon@epa.gov.

Attachments (3)

cc:    Eric Levy




11-P-0697                                                                      13
                                                                        Appendix C

                                 Distribution
Office of the Administrator
Regional Administrator, Region 5
Assistant Administrator for Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Chief, Enforcement and Compliance Assurance Branch, Region 5
Associate Branch Chief, Office of Regional Counsel, Region 5
Comptroller, Resources Management Division, Region 5
Audit Followup Coordinator, Region 5




11-P-0697                                                                            14
